TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Office of Disclosure Can Improve
                             Compliance With the
                   Freedom of Information Act Requirements



                                         August 31, 2007

                              Reference Number: 2007-10-133




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 31, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Office of Disclosure Can Improve
                              Compliance With the Freedom of Information Act Requirements
                              (Audit # 200710012)

 This report presents the results of our review for denials of taxpayer requests for information.
 The overall objective of this review was to determine whether the Internal Revenue Service
 (IRS) improperly withheld information requested by taxpayers in writing, based on Freedom of
 Information Act (FOIA)1 exemption (b)(3), in conjunction with Internal Revenue Code (I.R.C.)
 Section (§) 6103,2 and/or FOIA exemption (b)(7), or by replying the requested records were not
 available.
 The Treasury Inspector General for Tax Administration is required to conduct periodic audits to
 determine if the IRS properly denied taxpayers’ written requests for tax account information.
 We are also required to include the results of this audit in one of our Semiannual Reports to
 Congress. This is our eighth review of denials of FOIA, Privacy Act of 1974,3 and I.R.C. § 6103
 requests.

 Impact on the Taxpayer
 The FOIA, the Privacy Act, and I.R.C. § 6103 govern the release of Federal Government
 records to the public. The IRS has made significant improvement in the timeliness of
 responses to FOIA and Privacy Act requests; however, in 4.6 percent of FOIA and Privacy
 Act requests, and in 14.5 percent of I.R.C. § 6103 cases sampled, the IRS improperly

 1
   5 U.S.C.A. Section (§) 552 (West Supp. 2003).
 2
   I.R.C. § 6103 (2004).
 3
   5 U.S.C. § 552a (2000).
                    The Office of Disclosure Can Improve Compliance With the
                            Freedom of Information Act Requirements



withheld information from taxpayers. We estimate taxpayers were improperly denied
information for 344 requests made under the FOIA and Privacy Act and for 815 requests
made under I.R.C § 6103 that were closed during Fiscal Year 2006. This is a potential
violation of taxpayer rights because tax account information was available and was not
provided to taxpayers.

Synopsis
In 4 (4.6 percent) of the 88 FOIA and Privacy Act cases we sampled, the IRS improperly
withheld information from requestors. This represents a small improvement from the results
in our Fiscal Year 2006 audit report4 (6.1 percent). However, in 12 (14.5 percent) of the
83 I.R.C. § 6103 cases we sampled, the IRS improperly withheld information from requestors.
This represents a significant increase over the 2.3 percent error rate for I.R.C. § 6103 cases we
reported last year. We estimate 815 I.R.C. § 6103 cases were improperly denied for Fiscal
Year 2006. We believe errors occurred mainly because of inadequate research or simple
oversight by the Disclosure office caseworkers.
Since Fiscal Year 2000, the IRS has made significant improvement in responding timely to
FOIA and Privacy Act requests. For example, responses to only 2 (2.3 percent) of the 88 cases
in our sample were untimely. In our opinion, the delays in these 2 cases were not significant
because the responses were untimely by just 1 day or 2 days. In our audits over the previous
7 years, the percentages of untimely responses ranged from 7.3 percent to 43.5 percent. The
increase in responsiveness may, in part, be due to a significant decrease in the numbers of FOIA
and Privacy Act cases received during Fiscal Year 2006 compared to Fiscal Year 2005.

Response
We made no specific recommendations during this audit because recommendations made in our
previous audit reports are still valid for the issues reported. However, IRS management
reviewed this report prior to issuance and agreed with the facts, findings, and outcome measures
presented.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




4
 Compliance With Freedom of Information Act Requirements Has Increased (Reference Number 2006-10-129,
dated August 31, 2006).
                                                                                                        2
                          The Office of Disclosure Can Improve Compliance With the
                                  Freedom of Information Act Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Percentage of Improperly Denied Internal Revenue Code
          Section 6103 Requests for Information Has Increased.................................Page 4
          Disclosure Offices Improved the Timeliness of Responding to
          Requests for Information ..............................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
         The Office of Disclosure Can Improve Compliance With the
                 Freedom of Information Act Requirements




                     Abbreviations

FOIA              Freedom of Information Act
I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
                      The Office of Disclosure Can Improve Compliance With the
                              Freedom of Information Act Requirements




                                            Background

Statutory requirements
The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration to:
        . . . conduct periodic audits of a statistically valid sample of the total
        number of determinations made by the Internal Revenue Service to deny
        written requests to disclose information to taxpayers on the basis of
        section 61032 of this title3 or section 552(b)(7) of title 5, United States
        Code.4
The three primary laws that govern the types of requests for
information reviewed in this audit include the following:
                                                              The FOIA requires agencies
The Freedom of Information Act (FOIA) requires Federal          to make records of the
Government agencies to make records available to the             Federal Government
public upon request unless specifically exempted.             available to the public upon
Information that is “specifically exempted from disclosure    request unless specifically
by statute” is one of the exemptions. Internal Revenue Code              exempt.
(I.R.C.) Section (§) 6103 is an example of such a statute; it
protects the confidentiality of tax returns and return
information. Records or information compiled for law enforcement purposes are also exempt
from disclosure under the FOIA.
The Privacy Act of 19745 prohibits Federal Government agencies from relying on any
exemption in the Privacy Act to withhold records that are otherwise available to an individual
under the FOIA.
I.R.C. § 6103, while protecting the confidentiality of taxpayers’ returns and return information,
does allow a taxpayer, or a person designated by the taxpayer, to request and receive the
taxpayer’s specific documents and information.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The requirement for
this audit is in Section (§) 1102 (d)(3)(A) of the statute.
2
  Internal Revenue Code § 6103 (2001).
3
  26 U.S.C.
4
  Freedom of Information Act, 5 U.S.C.A. § 552 (West Supp. 2003).
5
  5 U.S.C. § 552a (2000).
                                                                                                          Page 1
                       The Office of Disclosure Can Improve Compliance With the
                               Freedom of Information Act Requirements



IRS processing and reporting of FOIA cases
Within the IRS, the Small Business/Self-Employed Division Office of Communications, Liaison,
and Disclosure (through its Governmental Liaison and Disclosure Branch) is responsible for
ensuring compliance with the FOIA, the Privacy Act, and I.R.C. § 6103 is timely. The Office of
Disclosure within the Governmental Liaison and Disclosure Branch sets policy and issues
instructions, guidelines, and procedures to ensure compliance with the disclosure statutes.
The Disclosure offices within the Small Business/Self-Employed Division processed the
FOIA and Privacy Act requests and the I.R.C. § 6103 requests received by the IRS through
January 2007. In its FOIA Annual Report for Fiscal Year 2006, the IRS reported that a total of
25,404 FOIA/Privacy Act cases were processed.6 This represents a decrease of 40 percent from
the 42,533 FOIA/Privacy Act cases processed during Fiscal Year 2005. The IRS attributes this
decrease to:
    •    A decrease in the number of frivolous requests.
    •    An increase in IRS employee awareness of what kinds of documents can be released to
         taxpayers without formal FOIA/Privacy Act requests.
    •    Taxpayers being able to receive more information from the IRS web sites without having
         to make formal requests.
The IRS denied or partially denied information to requestors in 2,489 (9.8 percent) of the
25,404 FOIA/Privacy Act cases processed in Fiscal Year 2006. It advised requestors that there
were no records responsive to requests in 5,372 (21.1 percent) of the 25,404 cases. The
remaining cases were either granted in full or closed for miscellaneous reasons, such as the
request was improper or had been previously granted. We selected our sample of cases for audit
review of denials of FOIA/Privacy Act requests from a total population of 7,565 cases closed
during Fiscal Year 2006 that either were fully denied, were partially denied, or for which no
records were found to be responsive to the requests.7

Audit limitations and standards
Individual IRS Disclosure offices or other IRS offices having custody of the records processed
written requests for information made under I.R.C. § 6103. While the IRS is not required to
track all requests made under I.R.C. § 6103, it has elected to do so for requests received by its
Disclosure offices. Disclosure offices used the IRS Electronic-Disclosure Information
Management System to track requests made under both the FOIA and the Privacy Act for Fiscal
Year 2006. Requests made under I.R.C. § 6103 that were received and processed by IRS offices

6
 FOIA Annual Report - Internal Revenue Service for Fiscal Year 2006.
7
 The total of 7,565 cases includes the 5,372 nonresponsive closures plus 2,193 of the 2,489 cases denied or partially
denied. The full 2,489 were not used due to filters identifying only cases denied for FOIA exemptions (b)(7) or
(b)(3) in conjunction with I.R.C. § 6103 (which was our criterion).
                                                                                                             Page 2
                       The Office of Disclosure Can Improve Compliance With the
                               Freedom of Information Act Requirements



other than Disclosure offices are neither controlled on the Electronic-Disclosure Information
Management System nor otherwise inventoried. Consequently, the volume of these requests is
not known. As a result, we can statistically sample only the I.R.C. § 6103 requests processed
directly by the IRS Disclosure offices and tracked on the Electronic-Disclosure Information
Management System.
Beginning in February 2006, the responsibility for processing some requests for I.R.C. § 6103
tax compliance checks and transcripts was transferred from the Small Business/Self-Employed
Division Disclosure offices to the Wage and Investment Division Return and Income
Verification Services Units.8 The Small Business/Self-Employed Division continues to process
the FOIA and Privacy Act requests for information. The transfer of responsibility for processing
of background checks and transcripts to the Return and Income Verification Services Units
resulted in an increase in our scope limitation for this and future years’ audits because the Wage
and Investment Division does not record the I.R.C § 6103 cases on the Electronic-Disclosure
Information Management System. We reviewed only those requests processed by the Small
Business/Self-Employed Division Disclosure offices that were denied during the period
October 1, 2005, through September 30, 2006.
During this 12-month period, IRS Disclosure offices processed approximately 19,000 requests
made under I.R.C. § 6103. We estimated that the Disclosure offices denied information, or told
requestors that records were not available, for approximately 29 percent of I.R.C. § 6103
requests (approximately 5,640 requests).9 The remaining requests were granted in full or
information on the disposition was not available.
This review was performed at the Governmental Liaison and Disclosure Branch in
Washington, D.C., during the period November 2006 through July 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




8
  Through the IRS campus Return and Income Verification Services Units, the Wage and Investment Division will
provide transcript records to requestors including probation offices, law enforcement offices, the gaming industry,
and licensing authorities. The Small Business/Self-Employed Division Disclosure offices will continue to provide
tax check research for Federal Government agency and White House requests. Campuses are the data processing
arm of the IRS. They process paper and electronic submissions, correct errors, and forward data to the Computing
Centers for analysis and posting to taxpayer accounts.
9
  We estimated this number based on the ratio of cases in our sample for which requestors were denied information
or were told records were not available (see Appendix I).
                                                                                                            Page 3
                                      The Office of Disclosure Can Improve Compliance With the
                                              Freedom of Information Act Requirements




                                                          Results of Review

The Percentage of Improperly Denied Internal Revenue Code
Section 6103 Requests for Information Has Increased
The IRS continued to improve its service to persons who requested information under the
FOIA/Privacy Act based on the sample of cases we reviewed. However, the IRS made
significantly more errors by improperly denying requests for information under I.R.C. § 6103.
The IRS improperly withheld information from requestors in 4 (4.6 percent) of the
88 FOIA/Privacy Act cases and in 12 (14.5 percent) of the 83 I.R.C. § 6103 cases we sampled.
As a result, we estimate the Disclosure offices did not provide available tax records for
344 requests made under the FOIA/Privacy Act and for 815 requests made under I.R.C. § 6103.10
Figure 1 shows the percentage of improper withholdings for FOIA/Privacy Act and
I.R.C. § 6103 requests identified in this and the seven prior audits we have conducted.

      Figure 1: Improper FOIA/Privacy Act and I.R.C. § 6103 Request Withholdings


                                    20%
                 Improper Denials




                                                                                      14.6%                             14.5%
                                                              12.2%
                                                   10.7% 10.6%
                                          8.8%                               9.3%
                                    10%                   7.0%           7.4%
                                                 6.3%                                         7.1%
                                                                                                            6.1%
                                                                                    4.4%                              4.6%
                                                                                                     3.1%
                                                                                                               2.3%

                                    0%
                                           2000         2001      2002     2003      2004      2005          2006      2007

                                                        Fiscal Year in Which Report Was Issued
                                                                 FOIA/Privacy Act          I.R.C. § 6103

           Source: Our audit reports issued in Fiscal Years 2000-2007. Percentages were rounded to the
           closest tenth

We analyzed the 4 FOIA/Privacy Act cases and the 12 I.R.C. § 6103 cases with improper
withholdings and determined the types of information improperly withheld have remained
relatively consistent with the type of information identified as improperly withheld during the


10
     See Appendix IV for details.
                                                                                                                                Page 4
                   The Office of Disclosure Can Improve Compliance With the
                           Freedom of Information Act Requirements




previous audit periods. The most common types of information withheld were miscellaneous
IRS forms and documents associated with tax transcript information.
Errors occurred mainly because of inadequate research or simple oversight by the Disclosure
office caseworkers. For two of the FOIA cases, the Disclosure office caseworkers either did not
conduct complete research or did not follow up with the Files function when requested
information was not received. In the other cases, the Disclosure office caseworkers either
addressed only one part of a multiple-part request or stated information was not available when it
was readily available.
Because the IRS improperly denied available records, taxpayers’ rights could have been violated,
taxpayers could have been burdened unnecessarily, and the IRS may have incurred additional
costs through the appeals process. For FOIA requests, if the IRS reports that no applicable
records exist, or denies any part of the request, the requestor may administratively appeal the
IRS’ decision. If the IRS denies the administrative appeal, the requestor has the right to appeal
the denial in court. Preparing and processing the appeals would place additional burden on the
requestor and additional costs on the IRS.
During Fiscal Year 2006, the IRS processed 289 FOIA/Privacy Act appeals. The Appeals Office
completely upheld the Disclosure office’s decision to deny records in 257 cases, partially
reversed 24 denials, and completely reversed 4 denials; the other 4 appeals were withdrawn. In
the four FOIA cases in which the IRS improperly withheld records in our sample, the requestors
did not appeal. Had these four taxpayers used the Appeals process, the improper determinations
may have been discovered and reversed.
Taxpayers have no provisions to appeal under I.R.C. § 6103 if the IRS fully or partially denies
requests for information or if the IRS reports no records are available. Taxpayers could incur
additional burden if they decided to request the information again, and the IRS would incur
additional costs to process these requests. The 14.5 percent error rate in improper denials of
I.R.C. § 6103 requests is a significant increase over the 2.3 percent error rate found in our prior
audit of Fiscal Year 2005 requests. As stated earlier, we believe errors occurred mainly because
of inadequate research or simple oversight by the Disclosure office caseworkers. The Disclosure
office has informed us that training has been provided to address these error cases, and it will
continue to address the I.R.C. § 6103 issues. Therefore, we are making no recommendation for
additional training in this report.




                                                                                            Page 5
                       The Office of Disclosure Can Improve Compliance With the
                               Freedom of Information Act Requirements



Disclosure Offices Improved the Timeliness of Responding to
Requests for Information
The FOIA requires Federal Government agencies to respond within 20 business days11 of the
receipt of a request or, if the 20 days are not sufficient, to notify the requestor of the reason why
the request cannot or will not be filled. Federal Government agencies are required to
immediately notify the requestor if they are unable to respond to the request within the time
limit, the reasons why they are unable to respond, and of the requestor’s right to appeal. The due
date for a FOIA request is revised when the IRS sends a letter to the requestor exercising its right
for an automatic 10-day extension and/or requesting a voluntary extension in excess of the initial
statutory 20-day period for FOIA requests.12 The requestor must agree to the voluntary
extension, and the IRS must notify the requestor of its ability to respond by the end of the
extension period. A case is untimely when the IRS responds to the requestor after the due date.
For Privacy Act cases, the IRS must respond within 30 business days of the taxpayer’s request.
Since Fiscal Year 2000, the IRS has made significant improvement in the timeliness of responses
to FOIA/Privacy Act requests. Figure 2 shows the percentages of untimely cases we have
reported since Fiscal Year 2000.
            Figure 2: Comparison of Untimely FOIA/Privacy Act Responses13




     Source: Our audit reports issued in Fiscal Years 2000-2007. Percentages were rounded to the closest tenth.

The Disclosure offices did not respond to the requestors in the time required by law for only
2 (2.3 percent) of the 88 FOIA/Privacy Act cases. In addition, the IRS reported a 95 percent
timeliness rate for all FOIA/Privacy Act closures in Fiscal Year 2006. In our opinion, the delays


11
   Excluding Saturdays, Sundays, and legal public holidays.
12
   The 10-day extension is “automatic” in that it is solely at the discretion of the Disclosure officer; the voluntary
extension requires notification to the requestor, who may then respond and file an appeal. Either or both extensions
may be used in a given case.
13
   We did not evaluate the timeliness of responses to FOIA/Privacy Act requests in the Fiscal Year 2004 audit
because the IRS was in the process of implementing our recommendations to improve timeliness.
                                                                                                              Page 6
                    The Office of Disclosure Can Improve Compliance With the
                            Freedom of Information Act Requirements



in these 2 cases were not significant because the responses were untimely by just 1 day or
2 days.
We estimate from the population of 7,565 cases closed during the period October 1, 2005,
through September 30, 2006, there were 172 FOIA/Privacy Act requests not processed timely.14
Based on our prior audits, the IRS is now responding more timely. For example, in our previous
audit, we estimated there were 469 FOIA/Privacy Act requests not processed timely during the
period April 1, 2005, through September 30, 2005.15 The improved response times in Fiscal
Year 2006 may, in part, be due to the significant decrease in the number of FOIA/Privacy Act
cases received in Fiscal Year 2005 (41,873) compared to Fiscal Year 2006 (24,523).




14
  See Appendix IV for details.
15
  Compliance With Freedom of Information Act Requirements Has Increased (Reference Number 2006-10-129,
dated August 31, 2006).
                                                                                                  Page 7
                     The Office of Disclosure Can Improve Compliance With the
                             Freedom of Information Act Requirements



                                                                                   Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS improperly withheld
information requested by taxpayers in writing, based on FOIA1 exemption (b)(3), in conjunction
with I.R.C. § 6103,2 and/or FOIA exemption (b)(7), or by replying the requested records were
not available. To accomplish the objective, we:
I.      Determined if the IRS Disclosure offices adhered to statutory FOIA and Privacy Act of
        19743 requirements and procedural requirements.
        A. Obtained a national extract from the Electronic-Disclosure Information Management
           System for the period October 1, 2005, through September 30, 2006, and identified
           7,565 FOIA and Privacy Act cases closed as denied or partially denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption
           (b)(7), or for which the IRS replied responsive records did not exist. We validated
           the extract by performing specialized queries.
        B. Designed an attribute sample based on a 90 percent confidence level, an expected
           error rate of 8 percent, and an estimated precision of +5 percent. Based on these
           parameters, a statistically valid sample size was 79 cases. We increased the attribute
           sample size from 79 cases to 90 cases to account for the possibility of missing case
           files. Of the 90 cases requested, we received 88 case files. This sampling
           methodology was chosen so we could project the number of cases with improper
           withholdings to the universe of cases that were partially or fully denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or for which requestors were told records were not available.
        C. Randomly sampled 88 of the 7,565 FOIA and Privacy Act cases that were partially or
           fully denied based on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103,
           and/or FOIA exemption (b)(7), or for which requestors were told records were not
           available.
        D. Reviewed the 88 sampled cases and determined if the decision to withhold
           information was appropriate, the record search was adequate, and the determination
           was made timely.



1
  5 U.S.C.A § 552 (West Supp. 2003) .
2
  I.R.C. § 6103 (2004).
3
  5 U.S.C. § 552a (2000).
                                                                                           Page 8
                 The Office of Disclosure Can Improve Compliance With the
                         Freedom of Information Act Requirements



      E. Projected the number of improper withholdings in the range of 69 to 619 (.91 percent
         to 8.18 percent) FOIA and Privacy Act cases that were partially or fully denied based
         on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
         exemption (b)(7), or for which requestors were told records were not available. The
         projection was made using attribute sampling, with a 90 percent confidence level and
         an actual error rate of 4.55 percent. As a result, the actual precision factor was
         +3.63 percent.
      F. Projected the number of untimely determinations in the range of 2 to 368 (0 percent
         to 4.87 percent) FOIA and Privacy Act cases that were partially or fully denied based
         on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
         exemption (b)(7), or for which requestors were told records were not available. The
         projection was made using attribute sampling, with a 90 percent confidence level and
         an actual error rate of 2.27 percent. As a result, the actual precision factor was
         +2.6 percent.
      G. Discussed all exception cases with the FOIA Senior Tax Law Specialist.
II.   Determined if the IRS Disclosure offices adhered to legal requirements when denying
      written requests received from taxpayers under I.R.C. § 6103.
      A. From the national extract obtained for Step I. A., identified 19,161 I.R.C. §§ 6103 (c)
         and (e) requests.
      B. Designed an attribute sample based on a 90 percent confidence level, an expected
         error rate of 8 percent, and an estimated precision of +5 percent. Based on these
         parameters, the size of the statistically valid sample was 79 cases. We selected a
         larger sample size to account for the possibility of missing case files. This sampling
         methodology was chosen because it would allow us to project the number of cases
         with improper withholdings to the universe of closed I.R.C. §§ 6103 (c) and (e)
         requests for which information was partially or fully denied or for which the IRS
         replied that responsive records did not exist.
      C. Selected a random sample of 300 of the 19,161 I.R.C. §§ 6103 (c) and (e) closed
         cases and requested the 300 cases from the IRS; we received only 282 cases. We
         determined 83 (29.43 percent) of the 282 randomly sampled and received cases
         included instances for which information was partially or fully denied or for which
         the IRS replied that responsive records did not exist.
         1. Based on an initial analysis of the 282 randomly sampled cases, we estimated the
            population of 19,161 closed I.R.C. §§ 6103 (c) and (e) requests contained
            5,640 cases for which information was partially or fully denied or for which the
            IRS replied responsive records did not exist.



                                                                                          Page 9
           The Office of Disclosure Can Improve Compliance With the
                   Freedom of Information Act Requirements



D. Reviewed the 83 cases for which information was partially or fully denied, or for
   which the IRS replied that responsive records did not exist, and determined if the
   decision to withhold the information based on I.R.C. § 6103 was appropriate.
E. Projected the number of improper withholdings in the range of 439 to
   1,191 (7.43 percent to 20.15 percent) for the I.R.C. §§ 6103 (c) and (e) requests for
   which information was partially or fully denied or for which the IRS replied that
   responsive records did not exist. The projection was made using attribute sampling,
   with a 90 percent confidence level and an actual error rate of 14.46 percent. As a
   result, the actual precision factor was +5.7 percent.
F. Discussed all exception cases with the FOIA Senior Tax Law Specialist.




                                                                                  Page 10
                  The Office of Disclosure Can Improve Compliance With the
                          Freedom of Information Act Requirements



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Janice M. Pryor, Audit Manager
Daniel M. Quinn, Lead Auditor
Mark A. Judson, Senior Auditor
Carol A. Rowland, Auditor




                                                                                    Page 11
                  The Office of Disclosure Can Improve Compliance With the
                          Freedom of Information Act Requirements



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner C
Office of Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Governmental Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD:GLD
Chief, Disclosure Branch, Small Business/Self-Employed Division SE:S:CLD:GLD:D
Freedom of Information Act Senior Tax Law Specialist, Small Business/Self-Employed Division
SE:S:CLD:GLD:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 12
                      The Office of Disclosure Can Improve Compliance With the
                              Freedom of Information Act Requirements



                                                                                 Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. These benefits will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 344 responses to FOIA1 or Privacy Act of 19742 requests for
    which information was improperly withheld during the 12-month period October 1, 2005,
    through September 30, 2006 (see page 4).

Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of 7,565 FOIA and Privacy Act
requests closed nationally during the period October 1, 2005, through September 30, 2006,
as 1) a full or partial denial with either FOIA exemption (b)(3), in conjunction with
I.R.C. § 6103,3 and/or FOIA exemption (b)(7) cited as one of the reasons for withholding
information or 2) a request for which the IRS replied responsive records did not exist. We
arrived at the estimate by:
    •   Multiplying the number of requests closed as 1) or 2) above by the error rate of cases
        identified in our sample (7,565 * 4.55 percent error rate = 344 cases). A case was
        considered an “error” if a Disclosure office improperly withheld information that was
        available and could have been released under the FOIA and Privacy Act.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 815 responses to I.R.C. § 6103 requests for which information
    was improperly withheld during the 12-month period October 1, 2005, through
    September 30, 2006 (see page 4).




1
  5 U.S.C.A. Section (§) 552 (West Supp. 2003).
2
  5 U.S.C. § 552a (2000).
3
  I.R.C. § 6103 (2004).
                                                                                          Page 13
                    The Office of Disclosure Can Improve Compliance With the
                            Freedom of Information Act Requirements



Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of I.R.C. §§ 6103 (c) and (e)
requests closed nationally during the period October 1, 2005, through September 30, 2006. The
Disclosure offices are not required to input a disposition code showing how I.R.C. § 6103 cases
are closed (granted, denied, etc.). We arrived at the estimate by:
    •   Identifying 19,161 closed I.R.C. §§ 6103 (c) and (e) requests.
    •   Requesting a random sample of 300 cases; we received 282 cases. Reviewed the 282
        cases to estimate the universe of denied, partially denied, or no requested record available
        cases closed during the period October 1, 2005, through September 30, 2006.
    •   Multiplying the total number of closed requests in the audit universe by the percentage of
        cases in the sample for which information was partially or fully denied or for which the
        IRS replied that responsive records did not exist (83 of 282 or 29.43 percent). Therefore,
        19,161 * 29.43 percent = 5,640 cases,
    •   Multiplying the estimated universe of cases for which information was partially or fully
        denied, or for which the IRS replied that responsive records did not exist, by the error rate
        for the cases reviewed (5,640 * 14.458 percent error rate = 815 cases). A case was
        considered an “error” if the Disclosure office improperly withheld information from the
        requestor.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 172 FOIA and Privacy Act requests that were not processed
    timely during the 12-month period October 1, 2005, through September 30, 2006
    (see page 6).

Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of 7,565 FOIA and Privacy Act
requests closed nationally during the period October 1, 2005, through September 30, 2006,
as 1) a full or partial denial with either FOIA exemption (b)(3), in conjunction with
I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for withholding
information or 2) a request for which the IRS replied responsive records did not exist. We
arrived at the estimate by:
    •   Multiplying the number of requests closed as 1) or 2) above by the percentage of
        untimely responses identified in our sample (7,565 * 2.27 percent error rate = 172 cases).




                                                                                            Page 14
